SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035

Bret Davis
Reg. No. Y29559
Lawrence Correctional Center
10930 Lawrence Road
Sumner IL 62466

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

March 24, 2021
In re;

People State of Illinois; respondent; v. Bret Davisrpetitioner
Leave to appeal, Appellate Court, Fourth District
126884

entttled cause C°Urt **** °ENIED 'he Petition f°r Leave *° Appeal in the above
The mandate of this Court will issue to the Appellate Court on 04/28/2021

Very truly yours,

6M
Clerk of the Supreme Court

A-1

: r I"

NOTICE
This order was filed under Supreme
Court Rule 23 and may not be cited
as precedent by any party except in
the limited circumstances allowed
under Rule 23(c)(1).

2020IL App (4th) 180337-U

FILED

NO. 4-18-0337

September 28,2020
Carla Bender
4,h District Appellate
Court, IL

IN THE APPELLATE COURT
OF ILLINOIS
FOURTH DISTRICT

THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,
v.
BRET DAVIS,
Defendant-Appellant.

)

Appeal from
Circuit Court of
Woodford County
No. 16CF163

)
)
)
)

Honorable
John Casey Costigan,
Judge Presiding.

)
)
)

JUSTICE HOLDER WHITE delivered the judgment of the court.
Justices DeArmond and Turner concurred in the judgment.
ORDER
11

Held. The appellate court affirmed, concluding (1) the State did not commit
-error challenge to the aggravated

assault instructions.

12

In October 2016, the State charged defendant, Bret Davis, by indictment

with one

count of attempt (murder) (720 ILCS 5/8-4(a) (West 2014)) (count I),

one count of aggravated
domestic battery (720 ILCS 5/12-3.3(a) (West 2014)) (count II), two counts of aggravated
battery (720 ILCS 5/12-3.05(f)(l) (West 2014)) (counts III and IV).

two counts of domestic
battery (subsequent offense felony) (720 ILCS 5/12-3.2(a)(l) (West 2014)) (counts V
and VI),
and one count of aggravated assault (720 ILCS 5/12-2(c)(7) (West 2014)) (count VII)
. The
charges stemmed from a September 26,2016. physical altercation between defend
ant and his
!Lenwife.JCristej. JnEebruary-MlTraie^tatealso-cliarged-defeiiaant with one count of

B-1

domestic battery (subsequent offense felony) (720ILCS 5/!2-3.2(a)(l) (W.
est 2014)) (count
VIII) and one count of aggravated battery (720 ILCS 5/12-3.05(0(1) (W
est 2014)) (count IX).
13
Following a March 2018 trial, a jmy found defendant guilty on all counts.
In May
2018, defendant filed a motion for a new trial.
The trial court denied the motion. The court
sentenced defendant on counts I, VII, VIII, and IX
Subsequently, defendant filed a motion to
reconsider sentence. The court determined it considered a
n improper aggravating factor and
resentenced defendant to 19 years’ i
imprisonment for attempt (murder) (count I), 2 years’
imprisonment for aggravated assault (count VII)

’ 2 years’ imprisonment for domestic batteiy
(subsequent offense felony) (count VIII), and 3 years’
imprisonment for aggravated battery
(count IX), all to run concurrent! y.

14

Defendant appeals, arguing (1) the State

denying defendant a fair trial where (a) it improperly i

committed prosecutorial misconduct

mpeached defendant by alleging during

cross examination that (i) defendant’s wounds

were self-inflicted and (ii) defendant attempted
suicide because he felt guilty, (b) i, inflamed the passions of the j
ury by comparing the victim’s
blood loss to a scene from the movie “Carrie,”
(c) it violated the trial court’s orders in limine by
(i) asking the victim about the no-contact order that was
entered after defendant’s prior arrest for
domestic battery and (ii) stating that certain
wounds were “defensive” wounds, and
(d) cumulatively, the prosecutorial misconduct was
plain error, and to the extent trial counsel
failed ,o preserve the issues, heprovided ineffeclive assistance of counsel; (2) rria, counsel
provided ineffective assi
ssistance of counsel by failing to file a motion to sever the

attempt murder

charge (count I) and the aggravated assault charge (count VII) ff
om the other counts; and
(3) defendant was depri ved of a fair trial where (a) trial
counsel failed to offer a “necessity” jury
instruction relating to the a
gg?.va^.assault,chameicoUnt.VJi)and(b)4hetrial-co
url improperly
B

-2-

instructed the jury on aggravated assault and trial counsel failed to object to the instruction given.
We affirm.

15
16

i. background
In October 2016, the State charged defendant with attempt (murder) (720ILCS

5/8-4(a) (West 2014)) (count I), aggravated domestic battery (720 ILCS 5/12-3.3(a) (W

est

2014)) (count II), aggravated battery (720 ILCS 5/12-3.05(0(1) (West 2014)) (counts III and IV),
domestic battery (subsequent offense felony) (720 ILCS 5/12-3.2(a)(l) (West 2014)) (counts V
and VI), and aggravated assault (720 ILCS 5/12-2(c)(7> (West 2014)) (count VII). The charges
stemmed from a September 26, 2016, physical altercation between defendant and Kristen. In
February 2017, the State also charged defendant with domestic battery (subsequent

offense

felony) (720 ILCS 5/12-3.2(a)(l) (West 2014)) (count VIII) and aggravated battery (720 ILCS
5/12-3.05(f)(1) (West 2014)) (count IX),

17
18

A. Pretrial Motions
In April 2017, the State filed a motion in limine seeking permission to offer

evidence regarding prior domestic violence incidents to demonstrate defendant’

s propensity

pursuant to section 115-7.4(a) of the Code of Criminal Procedure of 1963 (Criminal Procedure
Code) (725 ILCS 5/115-7.4(a) (West 2014)). Specifically, the State wanted to introduce
evidence regarding an October 9, 2014, domestic battery (Woodford County case No. 14-CM323) where defendant pled guilty to committing domestic battery against Kristen,
alleged the following:
“[T]he evidence expected to be heard from the 2014 incident
includes the defendant seeing his wife, Kristen Davis, with another
ma n and then forcing Kristen Davis into a truck and driving off

B

-3-

The State

into an unincorporated area of Woodford County, Illinois, where
Kristen Davis will testify that the defendant threatened to kill her,
restrained her, and drug [sic] her out of the truck. Due to that
incident an order of protection was entered and the defendant

was

not allowed to have contact with Kristen Davis until a few weeks
prior to the September 26, 2016[,] incident. The evidence will
establish the September 26, 2016[,] incident was the first ti

ime that

the defendant was alone with Kristen Davis in two years.”
19

During a June 2017 hearing, Kristen recounted the details of the October 9,

2014,

incident, and the trial court took judicial notice of Woodford County case No. 14-CM-323.
Kristen also testified regarding two other incidents involving defendant that took place in July
2014. She stated defendant slapped her during the first incident and threw things around the

room in the second incident. Over defense objection, the
to her version of the October 9,2014, incident.

court ruled Kristen could testify at trial

However, the court declined to allow evid ence

regarding defendant’s arrest and guilty plea in Woodford County case No. I4-CM-323.
110

In Januaty 2018, defendant filed a motion in limine asking the trial court, in

relevant part, to prohibit the State and any of its witnesses from testifying that (1) defendant had
self-inflicted lacerations, (2) defendant attempted suicide by jumping off a bridge
the incident, and (3) the alleged victim had

as a result of

wounds or injuries that were defensive in nature. At

a February 2018 hearing on defendant’s motion in limine, the State
to lay the necessary foundation for testimony that defendant’

admitted not having a doctor

s wounds were self-inflicted. The

State said it would not go down that road unless it could lay £
i proper foundation or the defense

B

.4.

opened the door to that line of questioning. The court granted defendant's motion in limine as to
the three issues. However, as to the “defensive” wounds evidence, the

court stated,

But that certainly doesn’t prohibit the alleged victim from
testifying in terms of what she did in terms of the occurrence that
took—allegedly took place in terms of how she may or may not
have held her hands or that type of thing. And the jury can draw
their own conclusion in terms of whether wounds were defensive
and how the wounds occurred. But unless we have the appropriate
foundation to go ahead and say these wounds were of a defensive
nature, the court will grant the motion.”

in
112

B, Defendant’s Jury Trial
In March 2018, defendant’s jury trial commenced, We summarize only the facts

necessary for the resolution of this appeal.
113
114

1. The State’s Evidence
Kristen testified she was married to defendant for almost 18 years and they had

three children together. The State asked Kristen whether there

was ever some type of “no­

contact” between the defendant and her. Kristen indicated that “right after that happened [(the
October 2014 incident)] he wasn’t allowed to contact me

***•” The defense objected and asked

for a mistrial or that Kristen’s testimony be stricken and fiulher testimony from Kristen be barred
as violating the court’s order in limine. The trial court overruled the

objection and declined to

grant the requested relief.
115

Kristen also testified about the September 26,2016, incident. On the morning of

September 26, 2016, defendant entered the family home and asked to talk with Kristen

B

-5-

about the

kids. Kristen and defendant sat down at the kitchen table, and defendant told Kriste

n he loved
her and now that he was home, he wanted them to be a family. Kristen told defendant they were
getting divorced. Kristen told defendant she could never bus, him no. to hurt her again, and he
said that he would never hurt her again.
116

Krjsten testified her conversation with defendant lasted about 10 minutes or less.

Kristen wanted to change visitation

arrangements for the kids, to make things more even.

Kristen indicated that, after the conversation ended, she and defendant sto

od up and as she

walked away, defendant said, “ no, no, I’m not doing this. I’m going to have my kids
every
night. At that point, Kristen was standing in front of the

stairs to the basement. Kristen
testified defendant pushed her in the chest with so much force she fell
all the way down the
basement stairs to the second to last stair. Kristen approximated there
were 13 stairs down to the
basement. When Kristen fell, she landed on her back.
Knsten testified that when she landed at
the bottom of the stairs, defendant ran toward h
117

er and pul led a knife out of his right pocket.

When Knsten tried to move back defendant stabbed her in the face.

Kristen

testified the stab felt like it was in her neck. Kristen tried again to scoot away and roll
over.
Defendant kept stabbing the back of Kristen’s head,
neck, and back. Kristen stated she tried to
crawl toward the curio cabinet but defendant

was standing near the cabinet so she crawled

toward the couch. When Kristen made it to the couch, she spotted workout weights

nearby.

Defendant kept stabbing Kristen, and she tried to defend h

erself with her hands. Kristen tried to
get mto a ball next to the couch, but defendant stabbed her in the neck and left the knife in her
neck by her ear. Kristen pulled the knife out of her neck with her right hand. Kristen testified
she contemplated stabbing defendant but realized she could not do it. Instead, she dropped the
knife at defendant’s feet. Defendant stood right above her.

B

-6-

If 18

After Kristen dropped the knife, something hit her in the head.

lhat she thought it was a hammer. Kristen tried crawling away and ended up

Kristen testified

in the corner next to

the weights. Kristen tried to cover her head, but defendant hit her several tim
es. Kristen testified
she was on her stomach with her head toward the couch. Kristen stated defendant also hit her on
her left leg. Kristen testified that when defendant hit her it felt like a hamm
when he stabbed her, she felt shaip pains and could

er hitting her and

see blood everywhere. Kristen begged

defendant to stop, but he remained silent. Then, she

stopped moving and ciying out. Kristen
then felt defendant stop attacking her, so she ran upstairs to her Tahoe and drove down the
street
to her friend Wendy Gardner's house. Wendy's boyfriend, Jason Damron, helped Kristen onto
Wendy’s porch and had her sit down. As Kristen sat on the porch, she saw defendant drive by in
his pickup truck. Wendy called the police and gave Kristen towels. Kristen testified she never
struck defendant during the altercation nor did she stab or slash him
119

with the knife.

Wendy, Kristen’s friend, testified she lived down the

street from Kristen. Wendy
testified that on September 26, 2016, she saw Kristen pull into her driveway and almost hi. her
boyfriend Jason’s truck. When Kristen got out of her Tahoe, Wendy observed Kristen

was
covered in blood. Wendy testified Kristen had stab wounds and “Kristen has long hair, so you
couldn’t see how many, but her entire hair was dripping in blood. She had been cut on her neck.
She had some kind of something on the side of her head where you could see through it.”
testified fatty tissue was visible in one of Kristen

Jason

s wounds and she had wounds that were

bleeding heavily. Specifically, Jason stated he was

concerned with “the inch and-a-half hole in

her head.” Jason indicated he stayed with Kristen until the ambulance
120

came and took her away.
Dr. Rozana Dwyer, Kristen’s treating physician, testified she washed Kristen’s

wounds and
sten had a large bruise
B -7-

on her left thigh. In Kristen’s computenzed tomography (CT) report, Dr. Dwyer found the
overall impression “was (here was no acute intercranial abnormality, and there was acute
posttraumatic left frontal left parietal soft tissue scalp contusions.”
121

Winston Whitten, a construction worker, testified that on September 26,2016,

around 11 a.m., he was working on Fandel Road in Germantown Hills, Illinois. He was fl^-g
in front of some “asphalt guys” doing some “

curb stuff’ after putting in a sidewalk. Whitten

testified that while he was holding the flag, he heard tires

squeal. Then, he saw a big blue truck

coming at him. Whitten tried to get the truck to stop, but it would
way and raised his flag up. Whitten testified he thought the truck
Whitten stated that if he had
122
123

not, so he moved out of the

was going to run him over.

not moved out of the way, the truck would have run him over.
2. The Defense

Following the State’s ease-in-chief, defendant moved for a directed verdict, which

.he .rial court denied. Defendant then testified to .he incident .ha. occurred on September 26,
2016. On September 26, 2016, defendant planned retake time off worktotalkro hi
is attorney to
get ready for the divorce mediation. That morning, defenda
nt went to the family home to ask
Kristen to talk. Defendant and Kristen sat down at the kitchen table to talk about th
e kids.
Defendant teslified .ha, Kristen did most of rhe miking. Defendant said that Kristen told him she
wanted a divorce. When the conversation ended, they both stood up from the tabl
fumed to go down the hallway toward the master bedroom,

e. Kristen

and defendant thought she was going
to leave. Defendant started to walk behind her to see her off when she turned
around and said, “I
hate you” and came at him with her hands.
Defendant testified Kristen came at his shoulder and
his neck area.

B -8-

124

Defendant testified he thought Kristen was going to batter him so he shoved her

back to protect himself. He pushed her just hard enough to create a little distance.

Kristen hit

the wall of the stairwell at an angle. Kristen then went forward and hit the stairs

and rolled once,
shoulder over shoulder. She bumped down to about two feet past the bottom of the
stairs, and
defendant stood at the top of the stairs. Defendant testified the stairs are kind of steep but he
thought Kristen embellished the seriousness of the fall.

Defendant then started down the stairs to

ask her if she was okay. In the process of Kristen getting up, she came at defendant as he was
bending down to check on her and slashed his neck several times.
125

Defendant testified that Kristen cut him. He did not initially realize she cut him

until he felt a burning type of feeling and saw the knife in her hand.

Defendant thought his life

was in danger. Kristen then started slashing at defendant's neck, and he shoved her back.
Kristen hit the couch and dropped the knife, and defendant grabbed it

Defendant stated his

purpose was to get the knife away from Kristen. However, Kristen came at defendant again,
hitting, punching, swinging, and kicking him.
126

Defendant testified that Kristen was injured in the fight. Defendant did not

remember stabbing her but rather was defending himself and trying to keep h

eraway. Kristen’s
lacerations to her cheek and the base of her head, shoulder, and back came about in the course of

the fight. Defendant testified he felt like he could die.
127

When Kristen’s aggression slowed, defendant dropped the knife, and she grabbed

it and cut defendant’s wrist, Defendant stated he was trying to protect himself with his hands up,
and she slashed him across the ann. He then saw the baseball bat out of the comer of his
eye.
He grabbed the bat and swung, hitting Kristen in the leg. She went down on her butt but still had
the knife. Defcndant.then.hitJier.on-the-top-of-the-head-with-the-batr

B

-9-

His second shot with the

124

Defendant testified he thought Kriste

a was going to batter him so he shoved her

back to protect himself. He pushed her just hard enough to create a life distance. Kristen hit
the wall of the stairwell at

an angle. Kristen then went forward and hit th

shoulder over shoulder. She bumped down to abo

e stairs and rolled once,

Ut two feet past the bottom of the stairs, and

defendant stood at the top of the s tairs.

Defendant testified the stairs are kind
of steep but he
thought Kristen embellished the seriousness of the fall.
Defendant then started down the stairs to
ask her if she was okay. In rheprocess ofKristen getting up, she ^ ^
ndant as he was
bending down to check on her and slashed his neck seve
ral times.
125
Defendant testified that Kristen cut him.
He did not initially realize she cut him
until he felt a burning type of feeling and saw the knife
in her hand. Defendant thought his life
was in danger. Kristen then started slashing at defend
ant s neck, and he shoved her back,
Kristen hit the couch and dropped the knife,
and defendant grabbed it. Defendant
stated his
purpose was to get the knife away from Kristen,
However, Kristen came at defendant again,
hitting, punching, swinging, and kicking him.
126

Defendant testified that Kristen was i
injured in the fight Defendant did not
remember stabbing her but rather was defe
nding himself and trying to keep her
away. Kristen’s
lacerations to her cheek and the base of her head,
shoulder, and back came about in the co
urse of
the fight. Defendant testified he felt like h
e could die.
127
When Knsten’s aggression slowed, defendant dropped the knife, and she grabbed
it and cut defendant's wrist. Defendant stated h
» was trying to protect himself with his hands up,
and she slashed him across the ann.

He then saw the baseball bat out of the comer
of his eye.
He grabbed the bat and swung, hitting Kri
sten m the leg. She went down on her butt but still had
the knife. Defendant theDJ?iLher.0ruhe-topof-the-head'withlHeT5at:
His second shot with the

a

-9-

bat caused her to drop the kuife. He picked up the knife and looked up and she was g
one. He
went upstairs and did not see her but then heard her car door sh
ut. Defendant testified he feared
Kristen had a pink gun in the house or in her vehicle, so he went back downsta
irs and dropped
the knife.

128

After defendant believed Kristen left in her Tahoe, he started to head up

stairs

when he felt woozy. He was going to sit down, but he realized he

needed immediate medical
attention. Defendant went outside to his truck and pulled out of the dri
veway. He went past
Wendy’s house and saw Kristen’s Tahoe in her driveway. He saw Kristen standing in the
doorway of the Tahoe. He left the neighborhood driving quickly and turned right

on Fandel

Road.
129

Defendant saw a road crew on the left side of the road.

He was in ihe right lane,
and he testified he could not stop because he needed immediate medical attention for his injuries.
Defendant testified he was not driving that fast but he did go through th

e construction zone. He

veered around the flag man but never intended to hit the flag

man. Something hit defendant’s
truck as he drove past the construction worker holding the flag. He then turned right onto Route
116, driving quickly. He took the first exit ramp for Route 150.

He went around a vehicle

approaching a bridge, and the next thing he knew he was looking

up, the hood of the truck was
wrinkled, and he had been jostled around. He was not wearing his seatbelt,
After the crash, he
got out of his truck, and his next memory was of being in the water,
looking up, and seeing
people looking down at him. He was treated at the hospital and received sutures to his neck. He
had surgery on his ann for significant nerve damage and an infection.

B -10-

130

On cross-examination, over objection, the State asked defendant if (1) his wounds

were self-inflicted, (2) he drove into the bridge intentionally, and (3) he jumped into the river to
kill himself. Defendant said no.
131

Multiple people testified to defendant’s reputation in the community for being

truthful and peaceful.
132
133

3 . Jury Instructions
The trial court instructed the jury on the aggravated assault charge (count VII)

using two non-Illinois Pattern Jury Instructions. Specifically, the court instructed the jury that
“A person commits the offense of aggravated assault when he operates a motor vehicle in a
manner which places a person in reasonable apprehension of being struck by a moving motor
vehicle.”
134

The court also instructed the jury indicating, “Closing arguments are made by the

attorneys to discuss the facts and circumstances in the case and should be confined to the
evidence and to reasonable inferences to be drawn from the evidence. Neither opening nor
closing arguments are evidence, and any statement or argument made by the attorneys

which is

not based on the evidence should be disregarded.”
135
136

4. Closing Arguments
During its initial closing argument, the State described Kristen being covered in

blood when she approached Wendy’s house, The State said, “[i]t was a scene from the movie
‘Carrie’ when Kristen Davis walked up to Wendy Gardner’s house. She’s bloody[.]”

Defense

counsel objected and stated there was no testimony regarding the movie “Carrie.” The trial court
sustained the objection. The State then went on as follows:

B

-11-

“She’s bloody. She is bloody all over. You heard the
testimony from Jason Damron, Wendy Gardner. She has this hole
in her head, and she’s bleeding profusely from it. A vicious attack
by the defendant caused her to bleed horribly from the top of her
head. That has been proven beyond a reasonable doubt.”
137

The State also argued defendant’s injuries were self-inflicted and that defend

ant
tried to commit suicide. In rebuttal, the State argued the cuts on Kristen’s hands were defensive
wounds. Further, the State argued defendant lacked defensive wounds. Defense counsel
objected and requested a corrective instruction. The court declined to give a corrective
instruction but informed the State to stay away from the defensive wounds. The court also said,
The jury will be instructed that closing arguments are not evidence.”
138
139
140
141

5. Verdict
Following deliberations, the jury found defendant guilty on all counts.
C. Defendant’s Posttrial Motion and Sentencing
In May 2018, defendant filed a motion for a new trial. The trial court denied the

motion. The court sentenced defendant on counts I, VII, VUI, and IX. The court concluded
extended term sentence would not be appropriate. Subsequently, defendant filed a motion to
reconsider sentence. The court determined it considered an improper aggravating factor
and
resentenced defendant to 19 years’ imprisonment for attempt (murder) (count I), 2 years’
imprisonment for aggravated assault (count VII). 2 yearn’ imprisonment for domestic battery
(subsequent offense felony) (count VIII), and 3 yearn’ imprisonment for aggravated battery
(count EX), all to run concurrently.
*42

-Tbis-appeal-followed:

B -12-

an

143
144

II. ANALYSIS
On appeal, defendant argues (1) the State committed prosecutorial

misconduct
denying defendant a fair trial where (a) it improperly impeached defendant by alleging during
cross examination that (i) defendant’s wounds were self-inflicted and (ii) defendant
suicide because he felt guilty, (b) it inflamed the passions of the jury by

attempted

comparing the victim’s

blood loss to a scene from the movie “Carrie,” (c) it violated the trial court’s orders in liminehy
(i) asking the victim about a no-contact order entered after defendant’s prior arrest for domestic
battery and (ii) stating that certain wounds were “defensive,” and (d) cumulatively, the
prosecutorial misconduct was plain error, and to the extent that trial counsel failed to

preserve

the issues, he provided ineffective assistance of counsel; (2) trial counsel provided

ineffective
assistance of counsel by failing to file a motion to sever the attempt murder charge (count I) and
the aggravated assaul. charge (count VII) from the other counts; and (3) defendant was deprived
of a fair trial where (a) his trial counsel failed to offier a ‘

‘necessity” jury instruction relating to

the aggravated assault charge (count VII) and (b) the trial

court improperly instructed the jury on

aggravated assault and trial counsel failed to object to the instruction given. We review each
issue in turn.
145

To preserve an error for consideration on appeal, a defendant must object to the

error at trial and raise the error in a posttrial motion. People v, Sebby, 2017IL 119445, f 48
N.E.3d 675. Failure to do so constitutes forfeiture,

,89

Id. However, we may consider a forfeited

claim where the defendant demonstrates a plain error occurred.

Ill. S. Ct.R. 615(a) (eff. Jan. 1,
1967). To prevail under the plain error doctrine, a defendant must first d
emonstrate a clear and
obvious error occurred. People v. Piatkowski,\ 225 Ill. 2d 551,
565, 870 N.E.2d 403,410-11
(2007). If an eiTor ocfiitrrexh we-will-only-reverse-where'(1)“the_evi(lence"if so" closelybalanced

B -13-

that the error alone threatened to tip the scales ofjustice against the defendant, regardless of the
seriousness of the error” or (2) the “error is so serious that it affected the fairness of the
defendant’s trial and challenged the integrity of the judicial process, regardless of the closeness
of the evidence.” Id.
146

Whether plain error occurred is a question of law we review denovo. People v.

Jones, 2016IL 119391, U 10, 67 N.E.3d 256.
147
148

A. Prosecutorial Misconduct
Defendant argues the State committed prosecutorial misconduct denying

defendant a fair trial. Specifically, defendant asserts (1) the State impeached defendant during
cross-examination and failed to perfect the impeachment, (2) the State improperly inflamed the
passions of the jury during closing argument, (3) the State violated orders in limineby
introducing evidence of a no-contact order and arguing Kristen suffered defensive

wounds, and

(4) any failure to preserve his claims of prosecutorial misconduct constituted ineffective
assistance of counsel, and that, cumulatively, the prosecutorial misconduct in this case amounted
to first-prong plain error. The State disagrees and responds the prosecutor’s remarks during
cross-examination and closing argument were proper. We agree with the State.
149

tc <

Generally, any permissible kind of impeaching matter may be developed on

cross- examination, since one of the purposes thereof is to test the credibility of the witnesses.

> >5

People v. Brazziel, 406 Ill. App. 3d 412,430, 939 N.E.2d 989,1006 (2010) (quoting People v.
Hall, 195 Ill. 2d 1,23, 743 N.E.2d 126,139 (2000)). Further, prosecutors have wide latitude in
closing arguments. People v. Jackson, 2020 IL 124112,182. “Moreover, improper
prosecutorial remarks can be cured by instruction to the juiy to disregard argument not based on
the evidence and to consider instead only the evidence presented.” People v Rn<him ip2 m.

B

-14-

App. 3d 444,454, 548 N.E.2d 788, 794 (1989). A reviewing court will consider the closi

srng

argument as a whole, rather than focusing on selected phr
ases or remarks. People v. Perry, 224
Ill. 2d 312, 347, 864 N.E.2d 196,218 (2007).
The appellate court reviews de no vo assertions
prosecutorial misconduct warrants a new trial.

People v. Wheeler, 226 Ill. 2d 92, 121, 871
N.E.2d 728, 744 (2007). Even under denovo review.
a defendant arguing prosecutorial
misconduct bears the burden of proof. People
k Hanson, 273 Ill. App. 3d 332, 338, 652 N.E.2d
824, 829 (1995).
150
151

I. Improper Impeachment
Defendant first argues the State committed

prosecutorial misconduct denying
defendant a fair trial where the State asked provocative leadi
mg questions on cross-examination
and then failed to perfect the impeachment with
extrinsic evidence. Specifically, defendant
argues the State did not introduce any evidence during the

course of the trial establishing

(1) defendant’s wounds were self-inflicted, (2) defendant drove into the side of the bridge to kill
himself, or (3) defendant jumped into the river to kill himself.

As such, the State never perfected
i.s impeachment. The State disagrees and cites People K Uwis, 2019IL App (1st) 160705, 137
N.E.3d 848, in support of its argument. We find Lewis instructive.
152

In Lewis, the defendant argued that it was improper for the State to

questions about a party that involved strippers, alcohol,

ask extrinsic

and marijuana. Id% 31. However,

defendant introduced the evidence about the stripp

er party as an alibi for defendant’s
whereabouts. Id. On cross-examination, the State, in
exploring the defendant’s alibi, asked the
defendant and a witness about the alleged party. Id.
“At trial. [the] defendant’s friend, Joshua Reed, testified that,
although he was present for a few hours and the parry
'-occurred-in
B -15-

only two rooms, he was not sure whether people at the party were
drinking or smoking marijuana. In contrast to Reed, [the]
defendant was sure, and sure that they were not. Considering the
contrast between their answers, the State explored this issue on its
cross-examination of [the] defendant.” Id. f 32.

If 53

On appeal, the State argued “that a late-night, alcohol-free, stripper party strains

common sense and plausibility; and, thus, the State argues that the prosecutor was crossexamining to probe their credibility.” Id. Considering the contrast in the defendant and Reed’s
answers, the State explored the issue on cross-examination of the defendant.

Id. The appellate

court found the State did not err in its line of questioning. Id. f 36. The court stated, “the
prosecutor in the instant case asked questions and did not state that defendant ‘actually told’ the
officers about drugs or alcohol; the subject of those questions was alive and

well and on the

witness stand and, thus, able to deny, and did *** ” Id. 135.
154

The Lewis court also distinguished two cases defendant relies on in asserting that

the State improperly impeached defendant on cross-examination. Defendant relies on People v.
Robertson, 198 Ill. App. 3d 98, 555 N.E.2d 778 (1990) and People y. McCoy, 2016IL App (1st)
130988,63 N.E.3d 1006, in support of his argument.
155

In Robertson., “the prosecutor insinuated that the defendant’s mother had made

several statements to an investigator, which she either denied or could not recall.”

Robertson,
198 III. App. 3d at 107. However, the “State never offered the testimony of the investigator or

his report to complete its impeachment of [the] witness.”

Id. The appellate court reversed due to

the State s repeated failure to perfect its impeachment ***. Id. at 100.

B -16-

f 56

In McCoy,; on cross-examination of the defendant, the prosecutor essentially told

the jury, in a flat-out statement, that the defendant “ ‘actually told’ ” the dying murder victim
that if he said anything* ” the defendant “ ‘would kill his family.

9 M

McCoy, 2016 IL App

(1st) 130988, 1 40. The prosecutor made this assertion, without any evidence that such a
statement had been made. Id. 1 58.
157

The Lewis court stated that, unlike Robertson and McCoy, in Lewisite State “did

not assert that it was in possession of a statement that it did not produce.” Lewis, 2019IL App
(1st) 160705, 1 38. Actually, we find defendant’s argument on this issue an attempt to place a
square peg in a round hole. Wc reject defendant’s attempt to shape this into a failure to perfect
impeachment issue. What occurred in this case demonstrates the proper use of vigorous cross
examination, asking questions based on reasonable inferences drawn from the evidence, and
asserting ones theory of the case, all cornerstones of our system of advocacy.
158

Here, on cross-examination, over objection, the State asked defendant if (1) his

wounds were self-inflicted, (2) he drove into the bridge intentionally, and (3) he jumped into the
river to kill himself. Defendant testified no. We find the State’s line of questioning was not
improper where like in Lewis, defendant was able to deny those questions on the stand. The
State asked defendant questions based on reasonable inferences drawn from the evidence. Here,
the State’s questions properly attacked defendant’s credibility given the stark contrast between
defendant’s testimony and Kristen’s testimony. See Brazziel, 406 Ill. App. 3d at 430. Moreover,
unlike Robertson and McCoy; the State’s questions on cross-examination did not suggest some
piece of evidence which the State failed to produce. In trying to show Kristen to be credible and
believable, the State, through cross-examination, offered the jury an explanation for defendant’s
injuries. Therefore, we find the cross-examination appropriate.

B

-17-

159
160

2. Inflame the Passions ofthe Jury
Next, defendant argues the State committed further misconduct by seeking to

inflame the passions of the jury during closing argument by comparing Kristen’s blood loss to a
scene from the movie “Carrie.”
161

In its initial closing argument, the State described Kristen as being covered in

blood when she approached Wendy’s house. The State argued, “[i]t was a scene from the movie
‘Carrie’ when [Kristen] walked up to Wendy Gardner’s house. She’s bloody[.]” Defense
counsel objected and stated there was no testimony regarding the movie “Carrie,” and the trial
court sustained the objection. The State then went on as follows:
“She’s bloody. She is bloody all over. You heard the
testimony from Jason Damron, Wendy Gardner. She has this hole
in her head, and she’s bleeding profusely from it. A vicious attack
by the defendant caused her to bleed horribly from the top of her
head. That has been proven beyond a reasonable doubt.”
In defendant s motion for a new trial he argued, “The People improperly and prejudicially
argued that the victim looked like a scene from the movie ‘Carrie’ which inflamed and unfairly
prejudiced the jury against the Defendant.” Thus, defendant preserved this alleged error.
162

As stated above, prosecutors are allowed great latitude during closing arguments.

Jackson, 2020IL 124112,1 82. Further, a reviewing court will consider the closing argument as
a whole, rather than focusing on selected phrases or remarks. Perry, 224 Ill. 2d at 347.
163

Here, the State’s comment comparing Kristen’s blood loss to a scene from the

movie “Carrie” did not amount to prosecutorial misconduct where the State made a single
reference to the movie. Also, when defense counsel objected, the trial court immediately

B

-18-

sustained the objection. The State avoided referencing the movie again and instead went on to
discuss Kristen’s injuries.
164

Moreover, the trial court instructed the jury that “[c] losing arguments are made by

the attorneys to discuss the facts and circumstances in the case and should be confined to the
evidence and to reasonable inferences to be drawn from the evidence.

Neither opening or

closing arguments are evidence, and any statement or argument made by the attorneys which is
not based on the evidence should be disregarded.” See Rushing, 192111. App. 3d at 454.
165

Ultimately, the brief reference to the movie followed by the trial court’

s prompt

sustaining of the objection, and the jury instruction directing jurors how to consider opening
statements and closing arguments failed to deprive defendant of a fair trial and did not cast doubt
upon the reliability of the judicial process. See People v. Johnson, 208 Ill. 2d 53, 84, 803 N.E.2d
405,423 (2003)
166
167

3. Motion in Limine Violations
Next, defendant argues the State committed prosecutorial misconduct by violating

the trial court’s order in limine, where the State (a) introduced evidence of a no-contact order
between defendant and Kristen and (b) described Kristen
168
169

’s wounds as “defensive.”

a. No-Contact Order
The State filed a motion in limine seeking to introduce evidence of defendant’s

earlier domestic violence against Kristen in Woodford County case No. 14-CM-323.

The trial

court allowed the State to introduce evidence of the attack but ruled defendant’s arrest and guilty
plea would not be admitted.

170

At trial, the State asked Kristen, "at some point in time was there some type of no-

contact?” Kristen responded, “[r]ight after [the 2014 incident] happened he

B - 19-

wasn’t allowed to

contact me, or anything.” The defense objected and moved for a mistrial or, in the alternative,
asked that Kristen’s testimony be stricken and further testimony from Kristen be barred as a
violation of the court’s order in limine. The trial court overruled the objection and declined to
grant a mistrial.
171

We find the State’s question to Kristen regarding “no contact” proper and

conclude the trial court correctly overruled defendant’s objection. The trial court’s written order
prohibited evidence regarding defendant’s arrest and guilty plea in Woodford County case No.
14-CM-323. The State questioned Kristen whether there was some type of no-contact. Notably,
the State failed to include the word “order” in its question. In addition, the State’s line of
questioning in no way elicited information regarding defendant’s arrest or guilty plea in
Woodford County case No. 14-CM-323. Thus, the State did not breach the order in limine
172
173

b. Defensive Wounds
Defendant also argues the State violated the trial court’s order in limine where,

during closing argument, the prosecutor described Kristen’s wounds as “defensive.”
174

Defendant filed a motion in limine asking the trial court, in relevant part, to

prohibit the People and any of its witnesses from testifying that (1) defendant had self-inflicted
lacerations, (2) defendant attempted suicide by jumping off a bridge as a result of the incident,
and (3) the alleged victim had wounds or injuries that were defensive in nature. During a pretrial
hearing on defendant’s motion in limine the State admitted it did not have a doctor who could lay
a foundation for testimony that defendant’s wounds were self-inflicted. The State said it would
not go down that road unless it could lay a proper foundation or if the defense opened the door to
that line of questioning. The trial court granted defendant’s motion in limine, but as to the
“defensive” wounds evidence, the court stated,

B

-20-

“But that certainly doesn’t prohibit the alleged victim from
testifying in terms of what she did in terms of the occurrence that
took—allegedly took place in terms of how she may or may not
have held her hands or that type of thing. And the jury can draw
their own conclusion in terms of whether wounds were defensive
and how the wounds occurred. But unless we have the appropriate
foundation to go ahead and say these wounds were of a defensive
nature, the court will grant the motion.”
175

In rebuttal during closing arguments, the State argued die cuts on Kristen’s hands

were defensive wounds. Further, the State argued defendant lacked any defensive wounds.
Defense counsel objected and requested a corrective instruction. The court declined to give a
corrective instruction but directed the State to stay away from the defensive wounds. The court
also stated, “The jury will be instructed that closing arguments are not evidence.”
176

We find the State did not violate the order in limine when it refrained from

eliciting any testimony that Kristen’s wounds were defensive but argued, during closing
argument, the defensive nature of Kristen’s wounds. Importantly, we consider the tenor of the
discussion between counsel and the trial court when addressing this issue during the hearing on
the motion in limine. At that time, defense counsel indicated, “my bigger issue and concern is
the unfair effect of having medical personnel saying without adequate foundation that certain
wounds are self-inflicted, certain wounds of the victim are defensive. That would—that’s expert
testimony, and it s expert medical testimony. *** So the bottom line is that’s expert testimony,
and that type of expert testimony has not been disclosed by the People up to this point.”

B

-21 -

177

In response, the State specifically noted, “As far as paragraph 3, the defensive

wounds, I believe we’re going to have evidence of the wounds, where they’re located. *** I
believe the victim is going to say she put her arms up, she was trying—in a defensive posture,
and that’s where a lot—some of these wounds came from based upon her motions. So I believe
that a jury can draw that, and I’m going to be arguing that at closing argument. It’s just during
the presentation of the evidence I don’t know if there’s going to be a person that absolutely says
these are defensive wounds, these are not defensive wounds.” In response, the court asked, “Do
you anticipate any of your medical individuals to say based upon the nature of the wound that it
was defensive in nature at this point?” In answering the court, the State indicated there existed at
that time no individual who would offer such testimony.
178

When ruling on the motion, the court indicated “if the State does intend to use the

word defensive, the court will need to go ahead and hear from that witness prior to that witness
testifying.” After hearing the court’s remark, the State offered no such witness.
179

Well within the State’s purview is the right to argue what the State believes the

evidence shows and suggest to the jury how the jury should view the evidence. Here, in
accordance with the order in limine, no State witness testified defendant’s wounds were selfinflicted or that Kristen’s wounds were defensive. Moreover, the trial court instructed the jury
that closing arguments are not evidence. Therefore, we find the State’s argument describing
Kristen’s wounds as “defensive” in nature appropriate and not prosecutorial misconduct,
ISO
181

4. Cumulative Error
Defendant argues that the cumulative effect of the prosecutorial misconduct by

the State amounted to first-prong plain error. Given our analysis regarding the various
statements made by the prosecution during cross-examination and closing argument, we are

B

-22-

unable to identify the “multiple” acts of misconduct that would be

necessary to support a finding

of cumulative error.
If 82

In the alternative, defendant argues trial counsel rendered ineffective assista

nee

by failing to preserve the prosecutorial misconduct i
issues on appeal. To succeed on a claim of
ineffective assistance of counsel, defendant must show that (1) the attorney’s performance fell
below an objective standard of reasonableness and (2) the deficient performance prejudiced the
defendant. Strickland v. Washington, 466 US. 668 (1984); People v. Albanese, 104 Ill.

2d 504,

526-27,473 N.E.2d 1246, 1255-56 (1984). Both prongs of the Strickland test must b

e satisfied;
therefore, a finding of ineffective assistance of counsel is precluded if a defendant fails to
satisfy
one of the prongs. People v. Simpson, 2015IL 116512, f 35, 25 N.E.3d 601.
183

Here, because the State did not commit prosecutorial misconduct during

examination or closing argument, we decline to criticize counsel for failin

cross-

g to preserve any issue.

Unable to show defense counsel’s performance fell below an objective standard of
reasonableness, defendant’s ineffective assistance of counsel claim fails.
184
185

B. Severance
Defendant next argues his trial counsel provided ineffective assistance of counsel

by failing to file a motion to sever the attempt murder charge (count I) and the aggravated assault
charge (count VII) from the other counts. Specifically, defendant argues his alleged prior
offenses of domestic violence were not admissible as propensity evidence pursuant to
115-7.4(a) of the Criminal Procedure Code (725 ILCS 5/115-7.4(a) (West 2014)),
the attempt murder charge (count I) and the aggravated assault charge (count VII)
asserts the statute limits its applicability to “an offense of domestic violence”

section

with regards to

. Defendant

or “first degree

murder or second degree.murdenwhen-the-commissiotrof-the offenseinvolvedHomestic----------

B -23-

(3) of Section 103 of the Illinois Domestic Violence Act of 1986,
or first degree murder or second degree murder when the
commission of the offense involves domestic violence, evidence of
the defendant’s commission of another offense or offenses of
domestic violence is admissible, and may be considered for its
bearing on any matter to which it is relevant.” Id.
189

Section 103 of the Illinois Domestic Violence Act of 1986 (750ILCS 60/103

(West 2014)), defines an offense of domestic violence as:
“(1) ‘Abuse’ means physical abuse, harassment, intimidation of a dependent,
interference with personal liberty or willful deprivation but does not include
reasonable direction of a minor child by a parent or person in loco parentis.

(3) ‘Domestic Violence’ means abuse as defined in paragraph (1).” Id.
190

We look to the language of the statute to determine whether defendant’s trial

counsel erred by not severing the attempted murder charge (count I) and the aggravated assault
charge (count VII) from the other counts. Section 115-7.4(a) allows evidence of defendant’s
commission of another offense of domestic violence where defendant is accused of “an offense
of domestic violence” and “first degree murder or second degree murder when the commission
of the offense involves domestic violence ***.” 725 ILCS 5/315-7.4(a) (West 2014)).
191

Defendant argues the attempted murder charge (count I) and the aggravated

assault charge (count VII) were not offenses of domestic violence or first degree murder or
second degree murder involving domestic violence. While we agree the two counts did not
involve first or second degree murder, we must determine what constitutes an offense nf

B

-25-

domestic violence. In doing so, we find People v. Nixon, 2016IL App (2d) 130514

, 53 N.E.3d

301, instructive.
192

Nixon in volved a defendant charged with aggravated discharge of a firearm (720

1LCS 5/24-1.2(a) (West 2012)) and being an armed habitual criminal (720ILCS 5/24-1.7(a)
(West 2012)), for firi ng a weapon at a veh icle belonging to the mother of two of his children.
Nixon, 2016 IL App (2d) 130514,13. The State sought to offer propensity evidence showing
defendant previously shot the victim. Id. f 5.
193

After examining the charge, the evidence surrounding the offense, and the same

statutory language involved in the case before us, the second district affirmed the trial

court’s
determination defendant’s alleged shooting at the victim’s vehicle constituted an act of
“domestic violence,” allowing the State to present propensity evidence of a prior domestic
violence incident. Id. f 45,
194

Based on language of the statute and the analysis in Nixon, we find defendant's

attempted murder eharge, where defendant attacked his then wife, involved an offense of
domestic violence. Thus, we find the State properly utilized propensity evidence in prosecuting
the attempted murder charge.
195

We now turn to defendant’s argument that where the aggravated assault charge

did not involve “an offense of domestic violence,” trial counsel provided ineffective assistance of
counsel by failing to seek to sever the aggravated assault charge, and this allowed the jury to hear
inadmissible propensity evidence. We agree the aggravated assault charge in this case did not
constitute an offense of domestic violence, meaning the State was not entitled to admit
propensity evidence. However, even so, we find defendant unable to establish prejudice.

B

-26-

196

Here, we consider whether improperly admitting propenshy rendered the result of

the trial on aggravated assault unreliable or the proceeding fundamentally

unfair. Simms,, 192

III. 2d at 363. In this instance, the propensity evidence paled in comparison to the evidence
regarding the conduct with which defendant was charged. Even if the propensity evidence had
not been admitted, the facts and circumstances regarding defendanfs attack on Kristen would
have been admitted in a separate trial on the aggravated assault charge,

Moreover, the Stated

primary witness regarding the aggravated assault, Winston Whitten, provided compelling
virtually unassailable testimony. Thus, even absent the propensity evidence, defendant still
faced a credible witness whom defense counsel

was unable to impeach. Although the propensity

evidence was not admissible, the admission of the propensity evidence failed to rend

er the results

unreliable and did not make the proceeding fundamentally unfair,

Given defendant’s failure to
demonstrate prejudice, his ineffective assistance of counsel claim fails.
197
198

C. Jury Instructions
Defendant argues he was deprived of a fair trial where (1) his trial

counsel failed
to offer a necessity jury instruction on the aggravated assault charge (count VII) and (2) the trial
court improperly instructed the jury on aggravated assault and trial counsel was ineffective for
failing to object to the instruction given. The State argues a necessity instruction would have
been properly rejected and the outcome of the proceedings would have been the same. Further,
the State argues that even absent the “without justification”

language, the aggravated assault jury

instruction did not constitute reversible error. We agree with the State.
199
1100

1. Necessity Instruction
The State charged defendant with aggravated assault “in violation of 720ILCS

S/12-2(c)(7) [(West 2014)], in that the said dcfendanl knowinglyJjvitfaaut.aulhorily,.operatcd^

B -27-

motor vehicle, a blue Dodge truck, in a manner which placed Winston Whitten in reasonable
apprehension of being struck by said motor vehicle.” Defendant argues he was entitled to a
necessity defense where his wife slashed his throat, causing excessive bleeding, and he failed to
stop for the work zone because he needed to obtain medical attention. Defendant asserts that a
pattern instruction exists for such a defense-Illinois Pattern Jury Instructions, Criminal, No. 2425.22 (approved July 18, 2014)—but that trial counsel failed to ask the trial court to instruct the
jury on necessity.
1101

We review claims of ineffective assistance of counsel under the standard set forth

in Strickland. As stated above, to succeed on a claim of ineffective assistance of counsel,
defendant must show (1) the attorney’s performance fell below an objective standard of
rea sonableness and (2) the deficient performance prejudiced the defendant,

Strickland, 466 U.S.

at 687.
1102

Defendant argues that his testimony at trial established the basis for a necessity

defense. The Illinois necessity statute provides,
“Conduct which would otherwise be an offense is justifiable by
reason of necessity if the accused was without blame in
occasioning or developing the situation and reasonably believed
such conduct was necessary to avoid a public or private injury
greater than the injury which might reasonably result from his own
conduct.” 720ILCS 5/7-13 (West 2014).
1103

At trial, Whitten testified defendant drove fast through the construction zone.

Whitten indicated defendant almost hit him and would have if he had not moved out of the way.
In contrast, defendant testified he was not driving that fast when he went through the_______

B -28-

vehicle, a blue Dodge truck, i
m a manner which placed Winston Whitten in reasonable
apprehension of being struck by said motor vehicle.”

The trial court instructed the jury that “A

person commits the offense of aggravated assault when he

operates a motor vehicle in a manner
which places a person in reasonable apprehension of being struck b
y a moving motor vehicle.”
1109
Defendant argues the trial court improperly instructed the jury where the
aggravated assault instruction omitted the language “without justification.”
the Criminal Code of2012 (720ILCS 5/12-2(c)(7) (West 2014))

, states a person commits

aggravated assault when in committing an assault he, without justification,
vehicle in a manner which places a person in reasonable appreh
moving motor vehicle. Defendant arg

Section 12-2(cX7) of

operates a motor

ension of being struck by the

ues omitting “without justification” constituted reversible

error.
1110

Initially, we note counsel agreed to the instruction

given. Where counsel

affirmatively agreed to the instructio
n given, the issue is waived and plain error analysis is not
available. See People v. Dun/ap, 2013 IL App (4th) 110892, f 12,992 N.E.2d 184. Thus,

we

decline to engage in plain-error analysis on this issue.
1111

In the alternative, defendant argues his trial counsel

was ineffective for foiling to

object to the aggravated assault jury instructions,

As stated above, to succeed on a claim of
ineffective assistance of counsel, defendant must sh
ow (1) the attorney’s performance fell bel
ow
an objective standard of reasonablen ess
and (2) the deficient performance prejudiced the
defendant. Strickland, 466 U.S. at 687.

Here, defendant is unable to establish prejudice.

1H2
1113

Here, we find that defendant

was not prejudiced where the jury instruction given
omitted'“withoufjustification” lan^. in thl^the
instruction would have
B -30-

included the words “without justification”

However, this was not an essential disputed issue.

Instead, the dispute centered on whether defendant placed Whitten in
reasonable apprehension of
being hit by defendant’s vehicle. Whether defendant

was justified in undertaking the actions in
which he engaged was not a disputed issue. Even absent the “
without justification” language,
the instructions given were sufficient assist the juty in resolving the essential disputed issue.
Also, as previously stated,

any argument defendant was justified in his actions goes against

defendant's theoty of the caso-that he carefully drove around Whitten
Whitten in apprehension of being struck by defendant’s

and in no way placed

vehicle. Therefore, defendant suffered

no prejudice when the instruction given omitted “

without justification” language. Thus,
defendant’s ineffective assistance of counsel claim fails.
1H4

III. CONCLUSION

1115

For the reasons stated, we affirm the trial court’s judgment.

1116

Affirmed.

B -31-

Additional material
from this filing is
available in the
Clerk's Office.

